         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Briefing Report




       Steps Taken But More Work Needed to
       Strengthen Governance, Increase
       Utilization, and Improve Security
       Planning for the Exchange Network

       Report No. 09-P-0184

       June 30, 2009
Report Contributors                           Rudolph M. Brevard
                                              Cheryl Reid
                                              David Cofer
                                              Anita Mooney
                                              Sejal Shah
                                              Christina Nelson




Abbreviations

ASSERT      Automated System Security Evaluation and Remediation Tracking
CDX         Central Data Exchange
EPA         U.S. Environmental Protection Agency
NIST        National Institute for Standards and Technology
OIG         Office of Inspector General
SP          Special Publication
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL




                                          June 30, 2009

MEMORANDUM

SUBJECT:              Steps Taken But More Work Needed to Strengthen Governance, Increase
                      Utilization, and Improve Security Planning for the Exchange Network
                      Report No. 09-P-0184


FROM:                 Rudolph M. Brevard
                      Director, Information Resources Management Assessments

TO:                   Linda Travers
                      Acting Assistant Administrator and Chief Information Officer
                      Office of Environmental Information

                      Lisa Schlosser
                      Director, Office of Information Collection
                      Office of Environmental Information


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report consists of the briefing presentation
we provided to Office of Environmental Information managers on May 4, 2009. This report
contains findings that describe the problems the OIG has identified and corrective actions the
OIG recommends. This report represents the opinion of the OIG and does not necessarily
represent the final EPA position. Final determinations on matters in this report will be made by
EPA managers in accordance with established audit resolution procedures.

We sought to determine whether EPA has taken:

   •   Corrective actions for recommendations made in the audit report Improved Management
       Practices Needed to Increase Use of Exchange Network, Report No. 2007-P-00030
       issued August 20, 2007; and
   •   Steps to ensure all Exchange Network components comply with federal security
       requirements.
We conducted this audit from January through May 2009 at EPA Headquarters in Washington,
DC, in accordance with the generally accepted government auditing standards issued by the
Comptroller General of the United States. These standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions.

We interviewed EPA personnel responsible for implementing the corrective actions in the prior
report and personnel responsible for managing the security activities reviewed. We reviewed
relevant security documents and evaluated them against prescribed federal and EPA guidance.
We reviewed self-reported security information entered into the Agency’s Automated System
Security Evaluation and Remediation Tracking (ASSERT) system and compared it against
information contained in the provided security documents.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $253,562.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report. We are requesting your response within 45 calendar days. You should include a
corrective actions plan for agreed upon actions, including milestone dates.

We would like to thank your staff for their cooperation. We have no objections to the further
release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0893
or brevard.rudy@epa.gov; or Cheryl Reid, Project Manager, at (919) 541-2256 or
reid.cheryl@epa.gov.
Steps Taken But More Work Needed
 to Strengthen Governance, Increase
  Utilization, and Improve Security
Planning for the Exchange Network

           Results of Review




               Report No. 09-P-0184   1
Objective 1


   Status of Prior Audit Report Recommendations




                   Report No. 09-P-0184           2
Prior Audit Report Recommendations

   Recommendation 2.1 - Acting Assistant Administrator
    for Environmental Information execute recently
    developed Exchange Network Communications and
    Marketing Plan elements that include actively promoting
    the business value of participating in Network initiatives
    to EPA and partner environmental program managers.

    Status - Ongoing and progressing




                           Report No. 09-P-0184                  3
Prior Audit Report Recommendations
(Cont.)
   Recommendation 2.2 - Acting Assistant Administrator
    for Environmental Information modify Exchange Network
    change management policies and procedures to include
    step-by-step processes for fully testing and certifying all
    implementation tools before release to the Exchange
    Network community.

    Status – Completed; published Principles, Rules, and
    Procedures for Change Management on the Exchange
    Network, V1.1, February 19, 2009.



                           Report No. 09-P-0184                   4
Prior Audit Report Recommendations
(Cont.)

   Recommendation 3.1 - Acting Assistant Administrator
    for Environmental Information work with Exchange
    Network governance bodies to develop and implement a
    process that uses the Network Business plan criteria to
    evaluate data flows for future Network implementation.

    Status – Completed; published 2009 Annual Exchange
    Network Grant Program Solicitation Notice, September,
    2008.


                          Report No. 09-P-0184                5
Prior Audit Report Recommendations
(Cont.)

   Recommendation 4.1 - Acting Assistant Administrator for
    Environmental Information develop a new milestone plan
    for completing the Exchange Network performance
    measures project.

    Status – Completed; first Performance Measures
    reported May 2008.




                         Report No. 09-P-0184             6
Prior Audit Report Recommendations
(Cont.)

   Recommendation 4.2 - Acting Assistant
    Administrator for Environmental Information develop
    procedures for establishing ad-hoc workgroups for
    Exchange Network projects.

    Status - Unimplemented




                         Report No. 09-P-0184             7
Prior Audit Report Recommendations
(Cont.)
   Recommendation 5.1 - Acting Assistant Administrator
    for Environmental Information publish standards that
    specify when EPA program offices must use the
    Exchange Network when modernizing or developing
    applications. The standards should also specify the
    processes EPA offices must follow when the office
    cannot adhere to the established standards or select an
    alternate technology solution to the one prescribed.

    Status - Unimplemented




                          Report No. 09-P-0184                8
Prior Audit Report Recommendations
(Cont.)
   Recommendation 5.2 - Acting Assistant Administrator for
    Environmental Information include the Exchange Network
    and related technologies as part of the Agency’s
    Enterprise Architecture.

    Status - Unimplemented




                         Report No. 09-P-0184             9
Prior Audit Report Recommendations
(Cont.)
   Recommendation 5.3 - Acting Assistant Administrator
    for Environmental Information have Office of Information
    Collection complete its plans to develop a tool offices
    can use to evaluate their applications in regard to
    Network technologies.

    Status – Completed March 27, 2008; created a Return
    on Investment Estimator tool for program offices to use
    in the early stages of planning new data flows.




                          Report No. 09-P-0184                10
OIG Recommendations
The Acting Assistant Administrator for
Environmental Information should:

1. Submit an updated Corrective Action Plan for
   unimplemented recommendations 4-2, 5-1, and 5-2.

2. Update EPA’s Management Audit Tracking System
   regarding unimplemented recommendations.




                     Report No. 09-P-0184             11
Objective 2


   Compliance with Federal Security Requirements




                   Report No. 09-P-0184            12
Certification & Accreditation (C&A)

   The current Central Data Exchange (CDX) Certification
    and Accreditation package is not in compliance with
    federal security requirements because the approved
    system security plan, the security assessment report,
    and the plan of action and milestones do not meet
    federal and agency requirements.




                         Report No. 09-P-0184               13
Security Plan & Risk Assessment
   Minimum Security Controls are not in compliance with
    latest National Institute for Standards and Technology
    (NIST) Special Publication (SP) 800-53, Revision 1.

   Security plan does not comply with NIST SP 800-18,
    Revision 1, because the Minimum Security Controls
    Section does not thoroughly describe how each security
    control is being implemented, or planned to be
    implemented.

   The latest CDX Risk Assessment, dated December 22,
    2004, is outdated.




                          Report No. 09-P-0184               14
Contingency Plan
   Record of Changes is not maintained, as required by NIST
    SP 800-34 guidance and the EPA’s Agency Network
    Security Policy.

   Office of Environmental Information did not provide
    documentation to (1) support the existence of a training
    plan that meets federal policy or guidance, and (2) confirm
    personnel have been trained on contingency plan
    responsibilities and procedures within the last two years.

   Office of Environmental Information has not conducted
    annual Contingency Plan testing, as required by the CDX
    Contingency Plan, Section 5. Last test was conducted in
    March 2006.
                          Report No. 09-P-0184              15
ASSERT Reporting
   ASSERT reporting for CDX is not accurate.
    Only:
       33% of the ASSERT data reviewed is supported by
        the corresponding data in the official security plan.
       25% of the ASSERT assessment entries are
        compliant with NIST SP 800-18, Revision 1.
       42% of the control elements evaluated in the official
        security plan are compliant with NIST SP 800-18,
        Revision 1.



                            Report No. 09-P-0184                16
Vulnerability Scanning
   Monthly server full system scans and Patchlink reports
    are not performed, as required by both EPA and CDX
    policy and procedures.

   Weekly server full system scans are not being
    performed, as required by both EPA and CDX policy
    and procedures.




                         Report No. 09-P-0184                17
Summary
   Steps needed to ensure the Exchange Network is fully
    recognized as the preferred method for exchanging
    environmental information between EPA and its partners,
    and to strengthen Exchange Network governance.
   Emphasis needed to ensure CDX meets the prescribed
    federal security requirements.

    Without action, management hinders its ability to
    achieve the desired utilization of the Exchange Network
    and ensure the Network is operating without
    vulnerabilities that could put needed data at risk.


                         Report No. 09-P-0184                 18
OIG Recommendations
The Director, Office of Information Collection
should:
3. Recertify and reaccredit CDX.

4. Update the CDX Security Plan to comply with NIST SP
   800-18, and ensure the plan describes how CDX
   implements the minimum security controls contained in
   NIST SP 800-53.

5. Conduct a formal, independent risk assessment of CDX;
   and ensure CDX is reassessed every three years, as
   required by EPA policy.

                       Report No. 09-P-0184            19
OIG Recommendations (cont.)

6.   Maintain the CDX Contingency Plan Record of
     Changes, as required by NIST SP 800-34 guidance
     and EPA’s Network Security Policy.

7.   Develop a CDX Contingency Plan training plan that
     meets federal requirements and ensure personnel with
     contingency plan responsibilities receive required
     training on responsibilities and procedures.

8.   Conduct CDX Contingency Plan testing at least
     annually, as required by Agency policy and NIST
     guidance.

                        Report No. 09-P-0184            20
OIG Recommendations (cont.)
9. Ensure data entered into ASSERT are supported either
   by the system security plan or by other documents
   referenced in the system security plan.

10. Perform required weekly and monthly network
    vulnerability testing, as required by EPA and CDX
    policy and procedures.

11. Issue an Interim Authorization to Operate CDX until
    CDX is reaccredited.

12. Enter a Plan of Actions and Milestones in the Agency’s
    information security weakness tracking system for
    recommendations 3 through 11.


                        Report No. 09-P-0184              21
